OIG Audit Report GR-30-07-002

Compliance with Standards Governing Combined DNA Index System Activities at the West Virginia State Police Crime Laboratory, South Charleston, West Virginia

Audit Report GR-30-07-002


April 2007
Office of the Inspector General


Executive Summary


 The Federal Bureau of Investigation’s (FBI) Combined DNA Index System (CODIS) integrates DNA profiles gathered at the state and local levels into a national DNA database. DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells that contains encoded information necessary for building and maintaining life. Approximately 99.9 percent of human DNA is the same. The differences found in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification characteristics (a DNA profile) for each person by analyzing a specimen that contains DNA. 
The FBI began the CODIS program as a pilot project in 1990. The DNA Identification Act of 1994 (Act) formalized the FBI’s authority to establish a national DNA index for law enforcement purposes. The Act authorized the FBI to establish an index of DNA identification records of persons convicted of crimes and analyses of DNA samples recovered from crime scenes. The Act further specified that the indices include only DNA information that is based on analyses performed in accordance with quality assurance standards (QAS) issued by the FBI.1 
 The FBI implemented CODIS as a distributed database with three hierarchical levels enabling federal, state, and local crime laboratories to compare DNA profiles electronically. The National DNA Index System (NDIS) is the highest level in the CODIS hierarchy and enables the laboratories participating in the CODIS program to compare DNA profiles on a national level. NDIS, operational since 1998, is managed by the FBI as the nation’s DNA database containing DNA profiles uploaded by participating states. Thus, a laboratory’s profiles have to be uploaded to NDIS before the profiles benefit the system as a whole. 
 The FBI provides CODIS software at no charge to any state or local law enforcement laboratory performing DNA analysis. Before a laboratory is allowed to participate at the national level, a Memorandum of Understanding (MOU) must be signed between the FBI and the applicable state laboratory. The MOU defines the responsibilities of each party, includes a sublicense for the use of the CODIS software, and delineates the standards laboratories must meet to use NDIS. 
The objective of the audit was to determine if the West Virginia State Laboratory (Laboratory) complied with the MOU and other standards governing CODIS activities. Specifically, we performed testing to determine if the: (1) Laboratory was in compliance with the NDIS participation requirements; (2) Laboratory was in compliance with the QAS issued by the FBI; and (3) Laboratory’s DNA profiles in CODIS databases were complete, accurate, and allowable.2 
 We determined that the Laboratory generally complied with standards governing CODIS activities. There were no exceptions noted regarding NDIS participation requirements or the QAS. We reviewed 50 forensic profiles and 100 convicted offender profiles originating from the Laboratory for completeness, accuracy, and NDIS-allowability, and found the following were uploaded to NDIS. 
 Unallowable Forensic Profile 1. DNA specimen number SO3-211-3Q1 came from semen found at the crime scene, which was the suspect’s home. There is a reasonable expectation that the suspect’s DNA would be found at his home. Thus, there is no certainty the DNA profile is linked to the crime. General principle number 8 on the September 20, 2006, flow chart prepared by the FBI, (entitled A Guide to Determining What is Allowable in the Forensic Index at NDIS) states that “If a suspect’s profile could reasonably have been expected to be on an item that is at the crime scene or is part of the crime scene independent of the crime, then it is probably not a Forensic Unknown. This would generally be considered a suspect profile and is therefore not allowable at NDIS.” In a discussion with Laboratory officials we acknowledged that this criteria was not in existence at the time this profile was uploaded to NDIS. 
 Unallowable Forensic Profile 2. DNA specimen number SO2‑457‑3Q1 was submitted to the Laboratory under the same case number as evidence from a similar crime, committed months earlier, because the investigator believed that the crimes were committed by the same individual. The evidence from the first crime included a videotape showing the suspect smoking a cigarette. The DNA profile developed from a cigarette submitted as evidence for the first crime indicated the suspect was a male. However, the DNA profile developed from a cigarette submitted as evidence for the second crime was for a female. The Laboratory should not have uploaded this profile to NDIS because it clearly did not belong to the suspect in this case. However, if the investigator had submitted the second cigarette to the Laboratory under a new case number, the profile would have been allowable at NDIS. 
 Questionable Forensic Profile. The Laboratory uploaded DNA specimen number B05-470-1Q without first comparing it to the victim’s DNA profile because the Laboratory did not obtain an elimination standard from the victim. According to the NDIS Custodian, a laboratory must make a concerted effort to obtain elimination standards from the submitting law enforcement agency. If a laboratory cannot obtain elimination standards, a profile may be uploaded to NDIS as long as the laboratory documents its requests for elimination standards in the case file. Since we did not find documentation in the case file demonstrating that the Laboratory made a concerted effort to obtain the victim’s elimination standard, Laboratory officials agreed to make a couple of requests for the victim’s elimination standard and document those requests in the case file. If the Laboratory obtains an elimination standard for the victim, Laboratory officials told us that they will analyze the elimination standard and compare the victim’s profile to the original profile uploaded to NDIS. If these profiles match, Laboratory officials told us that they will remove the original profile from NDIS. If the profiles do not match, or if the Laboratory is unable to obtain the victim’s elimination standard, the profile will remain in NDIS. 
 The Laboratory also uploaded to NDIS 1 convicted offender profile without a complete technical review. The Laboratory uploaded the profile before comparing it with all of the corresponding electropherograms.3   As a result, the Laboratory did not verify the data for 4 of 13 loci tested.4   Laboratory officials stated this profile was inadvertently uploaded to NDIS. 
While onsite, the Laboratory agreed with our findings and removed three of the four profiles from NDIS. The deletion of the questionable forensic DNA profile is pending. For the questionable forensic DNA profile in NDIS, we recommend that the FBI ensure that the Laboratory follows up on and makes a final determination on the allowability of the DNA profile from specimen number B05-470-1Q.



Footnotes

 Pub. L. No. 103-322 (1994)
Although CODIS currently contains five databases, the convicted offender database and the forensic database form the basis of CODIS’ crime-solving capabilities because they generate investigative law enforcement leads.
An electropherogram is a graph that depicts the DNA profile that is generated during DNA sample analysis. A DNA profile consists of a set of DNA identification characteristics that may permit the DNA of one person to be distinguishable from that of another person.
A locus is a specific location on a chromosome. The plural form of locus is loci.








Return to OIG Home Page